APPLICATION AND
SOLICITATION
DISCLOSURE
VISA

Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

0.00%

Introductory APR for a period of six billing cycles.

9.24% or 16.99%

After that, your APR will be
, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
APR for Balance Transfers

0.00% Introductory APR for a period of six billing cycles.

APR for Cash Advances

After that, your APR will be 9.24% or 16.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.
0.00% Introductory APR for a period of six billing cycles.
After that, your APR will be 9.24% or 16.99%, based on your
creditworthiness. This APR will vary with the market based on the Prime
Rate.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
If you are charged interest, the charge will be no less than $0.50.
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

1.00% of each transaction in U.S. dollars
Up to $15.00
Up to $10.00

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Minimum Interest Charge:
The minimum interest charge will be charged on any dollar amount.
Effective Date:
The information about the costs of the card described in this application is accurate as of: April 1, 2020
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the Visa is a secured credit card. Credit extended under this credit card account is
secured by various personal property and money including, but not limited to: (a) any goods you purchase with
this account, (b) any shares you specifically pledge as collateral for this account on a separate Pledge of Shares,
(c) all shares you have in any individual or joint account with the Credit Union excluding shares in an Individual

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01601453-MXC10-C-1-120619 (MXC101-E)

Retirement Account or in any other account that would lose special tax treatment under state or federal law, and
(d) collateral securing other loans you have with the Credit Union excluding dwellings. Notwithstanding the
foregoing, you acknowledge and agree that during any periods when you are a covered borrower under the
Military Lending Act your credit card will be secured by any specific Pledge of Shares you grant us but will not be
secured by all shares you have in any individual or joint account with the Credit Union. For clarity, you will not be
deemed a covered borrower if: (i) you establish your credit card account when you are not a covered borrower;
or (ii) you cease to be a covered borrower.
Other Fees & Disclosures:
Late Payment Fee:
5.00% of the amount of the required minimum payment or $15.00, whichever is greater, but in any case, never more than
the amount of the delinquent required minimum payment if you are more than 16 days delinquent in making a payment.
Returned Payment Fee:
$10.00 or the amount of the required minimum payment, whichever is less.
Pay-by-Phone Fee:
$5.00.
Rush Fee:
$25.00.
Statement Copy Fee:
$5.00.
Balance Transfer Limitations: If you request balance transfers, such transfers must be in the amount no less than
$500.00. When the discounted rate expires, the APR on existing balances will increase to the new non-discounted rate on
the first day of the billing cycle after the defined period disclosed within the table.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

01601453-MXC10-C-1-120619 (MXC101-E)

